E
Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

l-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-257
CALIFORNIA TROUT & TROUT UNLIMITED,
Petitioners,
V.

HOO PA VALLEY TRIBE & FEDERAL
ENERGY REGULATORY COMMISSION, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.l(b), being prepared in New Century Schoolbook 12 point
for the text and l O point for the footnotes, and this brief contains 2991 words, excluding the parts
that are exempted by Supreme Court Rule 33.l(d), as needed.

Subscribed and sworn to before me this 6th day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38975

